<html>
<title> - CONTINUED HUMAN RIGHTS ATTACKS ON FAMILIES IN CHINA</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
          CONTINUED HUMAN RIGHTS ATTACKS ON FAMILIES IN CHINA

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                            AND HUMAN RIGHTS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 9, 2012

                               __________

                           Serial No. 112-168

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
74-959                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4423342b04273137302c2128346a272b296a">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa<greek-l>
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey--
EDWARD R. ROYCE, California              deceased 3/6/12 deg.
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
RON PAUL, Texas                      ELIOT L. ENGEL, New York
MIKE PENCE, Indiana                  GREGORY W. MEEKS, New York
JOE WILSON, South Carolina           RUSS CARNAHAN, Missouri
CONNIE MACK, Florida                 ALBIO SIRES, New Jersey
JEFF FORTENBERRY, Nebraska           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       DENNIS CARDOZA, California
GUS M. BILIRAKIS, Florida            BEN CHANDLER, Kentucky
JEAN SCHMIDT, Ohio                   BRIAN HIGGINS, New York
BILL JOHNSON, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
DAVID RIVERA, Florida                CHRISTOPHER S. MURPHY, Connecticut
MIKE KELLY, Pennsylvania             FREDERICA WILSON, Florida
TIM GRIFFIN, Arkansas                KAREN BASS, California
TOM MARINO, Pennsylvania             WILLIAM KEATING, Massachusetts
JEFF DUNCAN, South Carolina          DAVID CICILLINE, Rhode Island
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

        Subcommittee on Africa, Global Health, and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
JEFF FORTENBERRY, Nebraska           KAREN BASS, California<greek-l>
TOM MARINO, Pennsylvania             DONALD M. PAYNE, New Jersey--
ANN MARIE BUERKLE, New York              deceased 3/6/12 deg.
ROBERT TURNER, New York              RUSS CARNAHAN, Missouri
                                     THEODORE E. DEUTCH, 
                                         Florida<greek-l>As of 6/19/
                                         12 deg.


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Pastor Bob Fu, founder and president, ChinaAid Association.......     9
Ms. Reggie Littlejohn, founder and president, Women's Rights 
  Without Frontiers..............................................    23
Mr. Steven Mosher, president, Population Research Institute......    33
Mr. T. Kumar, director of international advocacy, Amnesty 
  International..................................................    41
Ms. Yanling Guo, victim of China's population control policies...    43

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Pastor Bob Fu:
  Letter from Chinese scholars on the repeal of the family 
    planning law.................................................    12
  Prepared statement.............................................    17
  Documents relating to the capture of and fines levied against 
    Ms. Guo translated into English..............................    57
Ms. Reggie Littlejohn: Prepared statement........................    27
Mr. Steven Mosher: Prepared statement............................    36
Ms. Yanling Guo: Prepared statement..............................    45
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, and Human Rights: Material submitted for 
  the record.....................................................    67

                                APPENDIX

Hearing notice...................................................    76
Hearing minutes..................................................    77


          CONTINUED HUMAN RIGHTS ATTACKS ON FAMILIES IN CHINA

                              ----------                              


                          MONDAY, JULY 9, 2012

              House of Representatives,    
         Subcommittee on Africa, Global Health,    
                                  and Human Rights,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2172, Rayburn House Office Building, Hon. 
Christopher H. Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order and good 
afternoon to everyone. China's one-child policy has been in 
effect since 1979, is state sponsored murder, and it 
constitutes massive crimes again humanity. The Nuremberg War 
Crimes Tribunal properly construed forced abortion as a crime 
against humanity. Nothing in human history compares to the 
magnitude of China's 33-year assault on women and children. 
Abortion is a weapon of mass destruction and millions have been 
exterminated.
    Today in China, rather than being given maternal care, 
pregnant women without birth-allowed permits are hunted down 
and forcibly aborted. They are mocked, they are belittled and 
they are humiliated. In recent days, the exploitation and 
forced abortion at 7 months of Feng Jianmei has sparked global 
outrage and deep concern for her welfare and for that of the 
women in China. As a matter of fact, I would note 
parenthetically, in early July, the European Parliament 
condemned China's one-child-per-couple policy with its reliance 
on forced abortion.
    While Feng remains in a hospital she calls a prison, her 
husband Deng has been beaten. Feng's gross mistreatment, 
however, is far too commonplace. Feng Jianmei was forced to 
undergo an abortion on June 2, 7 months into her pregnancy. 
Many reports indicate that local officials in northwestern 
Shaanxi Province held Ms. Feng for 3 days, blindfolded, and 
coerced her to consent to the abortion. With the supposed 
consent, it took five men to hold her down and administer the 
drug that induced the 48-hour labor. The injection was given 
directly to the child's head. Ms. Feng's husband, Deng, posted 
graphic photos of his wife and the dead baby online; 
embarrassing the government. Deng Jicai, Mr. Deng's sister, and 
her brother and sister-in-law, had refrained from speaking to 
the media but decided to speak to German reporters who traveled 
to Shaanxi when the government did not produce investigation 
results as promised.
    Ms. Deng reported to the media that the local government 
organized a backlash against the family members, calling them 
traitors and keeping them under surveillance apparently angered 
over the family contact with journalists. Local residents took 
a long bus ride to the hospital where Ms. Feng was recovering 
from the abortion and demonstrated with banners like, ``beat 
the traitors soundly,'' and ``expel them from the township.'' 
Family members claim that the demonstration seemed to be a 
campaign organized and funded by local authorities, but made to 
look like a spontaneous public gesture.
    Mr. Deng reportedly was also beaten and labeled a traitor 
for speaking about the crime committed against his wife. The 
China Daily reported that there was no legal basis for the fine 
of $6,300 for the second pregnancy that Ms. Feng refused to 
pay. The local government also has admitted that Ms Feng's 
legal rights were violated. Publicity surrounding the forced 
abortion prompted the firing of two local government officials 
and warning or demerits being issued against five others. Mr. 
Deng escaped from the hospital where both he and his wife were 
being forcibly detained. He traveled to Beijing and hired a 
lawyer to sue the local government. Mr. Deng's location is now 
unknown, but it is believed that he is in hiding. And of 
course, Ms. Feng is still being held in the hospital.
    Their lawyer, Zhang Kai, said recently that he sent a legal 
request on behalf of the Feng's husband asking local police and 
prosecutors to investigate criminal infractions in the case. 
Deng is also seeking unspecified compensation from the 
government.
    The widespread circulation of the photos posted by Mr. Deng 
has prompted renewed debate in China and the world regarding 
the one-child policy, possibly including within the government 
itself. Researchers with a center affiliated with China's State 
Council, the equivalent of China's cabinet, argued in an essay 
published in the China Economic Times newspaper on July 3 that 
China should adjust the one-child policy as soon as possible to 
head off a potential demographic crisis.
    The Wall Street Journal on July 6 also reported that a 
group of prominent Chinese scholars issued an open letter on 
Thursday calling for a rethink of the one-child policy. The 
group argued that the policy in its current form is 
incompatible with China's increasing respect for human rights 
and need for sustainable economic development. The letter comes 
less than a month after Feng's photo and story ignited the 
public anger.
    ``The birth-approved system built on the idea of 
controlling population size as emphasized in the current 
`Population of Family Planning Law' does not accord with 
provisions on the protection of human rights contained the 
nation's constitution,'' the authors of Thursday's letter 
wrote, adding that the rewriting of the law was ``imperative.''
    The list of signatories to Thursday's letter included 
several high profile figures, including Beijing University 
sociologist Li Jianxin and Internet entrepreneur James Liang. 
``This is a time during which people all over the world have 
realized that there are problems with the [one-child] policy,'' 
Mr. Liang, the co-founder and chief executive of a Chinese 
online travel site, told The Wall Street Journal. Mr. Liang has 
spent the past 5 years pursuing a Ph.D. in economics at 
Stanford and just published a book challenging the notion that 
China has too many people. Mr. Liang said he has felt a recent 
opening up of discussion around the one-child policy.
    Mr. Liang also advocates a complete dismantling of the 
family planning system rather than a two-child system put 
forward by others. He said he initially became interested in 
the one-child policy when he came across research showing that 
innovation and entrepreneurship are dominated by young people. 
He said he feared a shrinking of the population of young people 
would hamper the country's efforts to evolve beyond being 
merely the world's factory.
    ``From an economic perspective, the one-child policy is 
irrational,'' he wrote. ``From a human rights perspective it is 
even less rational.''
    Today we will hear testimony from Guo Yangling who will 
tell us how she, like Feng, suffered a brutalizing late-term 
abortion. She notes that heading out to breakfast, she was 
stopped by an older woman in her 50s and asked if she had a 
birth permit. Again, without a birth permit, a child simply 
cannot be born. ``Then two staff members from the Family 
Planning Commission came and asked me where I was from, and 
where I lived, and what my name was. I tried to walk away but 
they wouldn't let me go,'' she will say. ``Help,'' she said, 
``somebody help,'' but no one came to help. Then two vans 
arrived, the doors opened, and she was put into the van.
    And she said on her way while she was complaining, they 
stuffed a rag into her mouth to gag her. She then went on to 
say that when she got to the second floor of the abortion mill, 
there were a number of female victims sitting on the benches in 
the corridor, their eyes filled with tears of anxiety, terror 
and sadness. ``A woman dressed in white and wearing a surgical 
mask told me to get on the delivery bed immediately. I 
refused,'' she said, ``so they pinned me down on the bed by 
force. After the person in white pressed my belly with her 
hands and felt the position of my baby's head,'' she goes on to 
say, ``she stuck a big long fatal needle into the abdomen.'' 
And then she said, ``my unborn baby had been murdered and I 
lost heart.'' She will be testifying today before this hearing.
    This is the grim reality of the one-child-per-couple 
policy: Broken women and dead babies. As we have known for 
three decades, there are no single moms in China, except those 
who somehow evade the family planning cadres and concealed 
their pregnancy. For over three decades brothers and sisters 
have been illegal. Anyone in this room, anybody who might hear 
about this hearing, anybody in the world who has a brother or 
sister, not so in China, they are illegal. The mother has 
absolutely no right to protect her unborn baby from state-
sponsored violence.
    The price of failing to conform is absolutely staggering. 
If you have an out-of-plan illegal child, your other child, if 
there is one, could be denied education, health care, marriage 
and the fines, again, are unbearable. Ms. Feng was told she had 
to pay a $6,300 fine or else her child would be killed at 7 
months, sometimes that fine, called a social compensation fee, 
goes as high as 10 times the combined salaries of the mother 
and the father.
    Her trauma, women in China like Feng and Guo is 
incomprehensible and it is a trauma she shares to some degree 
with every woman in China. The World Health Organization says 
something on the order of 500 women per day in China commit 
suicide. Unlike any other country in the world, these women are 
suffering the trauma of being forcibly aborted and many take 
their own lives.
    The result of this policy is a nightmarish, brave new 
world, with no precedent in human history. Where women are 
psychologically wounded, girls fall victim to sex selection 
abortion. In some provinces, 140 boys are born per every 100 
girls. And most children grow up, as I said before, without 
brothers, or sisters, or aunts, or uncles, or cousins.
    Over the years, I have chaired 37 congressional hearings 
focused in whole or in part on China's one-child policy. At 
one, the principle witness was a woman named Wuijan, a Chinese 
student attending university here in the United States who 
testified how her child was forcibly murdered by the 
government. She said the waiting room was full of moms who had 
just gone through a forced abortion. Some moms were crying, 
some were mourning, some moms were screaming. One mom was 
rolling on the floor with unbearable pain, she testified. Then 
Wuijan said it was her turn, and she described through tears 
what she called her ``journey in hell.''
    At another hearing right in this room in the mid 1990s, a 
woman who was the director of the family planning clinic in 
Fujian province said that by day, she was a monster; by night a 
wife and mother of one. Harry Wu arranged for her testimony. It 
was very difficult to get her into this country, and when she 
told her story, you could have heard a pin drop.
    Women bear the major brunt of the one-child policy not only 
as victimized mothers, but again, because girls are selected; 
sex selection abortion is huge in China with a catastrophic 
impact on the girl child as well as this gendercide that has 
lead to an unimaginable increase in human trafficking.
    Some of you may know I am the author of the Trafficking 
Victims Protection Act of 2000. Well, this year's TIP released 
on June 19 points out that China's birth limitation policy 
coupled with a cultural preference for sons creates a skewed 
sex ratio in China which served as a key cause, I repeat, a key 
cause of trafficking of foreign women as brides for Chinese 
men, and for, of course, prostitution.
    The report goes on to say that the government took no, that 
is to say, the Chinese Government, took no discernible steps to 
address the role that its birth limitation policy plays in 
fueling human trafficking in China with gaping gender 
disparities resulting in shortages of female marriage partners.
    On June 26th, an op-ed in The People's Daily, the official 
paper of the Chinese Party, shed light on this emerging 
demographic catastrophe that is in China. The article entitled 
``Leftover Men to Be a Big Problem,'' admits there is a 
``bachelors crisis'' that will ``trigger a moral crisis,'' 
these are their words, ``of marriage and family.'' We have 
heard that before, many of our witnesses have spoken to this, 
in some cases for decades, that there is a huge disparity of 
males to females. Nicholas Eberstadt, the world renowned 
demographer, has said what are the consequences for a society 
that has chosen to become simultaneously more gray and more 
male.
    Let me just say, finally, last August, Vice President Joe 
Biden visited China and told an audience that he was fully 
aware and fully understood the one-child policy, and he was not 
second-guessing the state of China for imposing it. I would 
say, first, to my colleagues, what would the public reaction be 
if the Vice President or any public official, House, Senate or 
White House or anywhere else in the world said that he fully 
understands and is not second-guessing copyright infringement? 
A gross violation of intellectual property rights? Or torture? 
Or religious persecution?
    The one-child-per-couple policy is the most egregious and 
vicious attack on women ever in its scope, pervasiveness, and 
it is done with impunity every day. Ms. Feng's case is one of 
tens of millions that happened over the last 30 years. I would 
just say that I am concerned as well that we continue to fund 
organizations like the U.N. Population fund.
    In May 1984, 28 years ago, I offered the first amendment 
ever to a foreign aid bill to deny funding to any organization, 
including the U.N. Population Fund that are complicit with 
China's forced abortion policy or its involuntary sterilization 
policy. It passed, and that language matriculated into the 
Kemp-Kasten Amendment after Jack Kemp of New York offered it 
through an appropriations bill.
    After all these years, it is astonishing that policymakers 
remain indifferent or supportive of these massive crimes 
against women and children. The Obama administration has long 
enabled this policy by its silence and financial support to the 
tune of $165 million over the past 3 years to UNFPA, an 
organization that supports, plans, implements, defends, and 
whitewashes these crimes against humanity.
    I have met with the leaders of the Chinese population 
program, I remember Peng Peiyun on one particular trip, and she 
launched into a defense of their program claiming that the 
UNFPA was in town, was there and they defended it, and said it 
was a totally voluntary program.
    Finally, in 2000, I wrote a law called the Admiral James W. 
Nance and Meg Donovan Foreign Relations Authorization Act for 
Fiscal Years 2000 and 2001. Section 801 of Title VIII of that 
Act is still in effect today. It requires the Secretary of 
State not to issue any visa to, and the Attorney General not to 
admit to the United States, any foreign national whom the 
Secretary finds based on credible and specific information to 
have been directly involved in the establishment or enforcement 
of forced abortion or forced sterilization. Owing to a glaring 
lack of implementation, only a handful of abusers of women have 
reportedly been denied visas to the United States. That, too, 
must change.
    I would yield too my good friend, Ms. Bass, for any 
openings comments that she would make.
    Ms. Bass. Thank you. Mr. Chairman, this hearing covers a 
topic of international concern for which this committee has, as 
you recounted, received testimony on a number of occasions. And 
you have certainly been outspoken on China's one-child policy. 
And I know that several of today's witnesses have, on numerous 
occasions, expertly argued the China's one-child policy raises 
considerable concern and is absolutely egregious.
    Today's witnesses have also drawn our attention to numerous 
other human rights violations with respect to women in China. 
It is my hope that today's hearing will speak not nearly on 
behalf of the countless women in China, of course, who endured 
grave harm to their minds and bodies, but on behalf of women 
and girls everywhere who are under threat each and every day, 
who live in perpetual fear, and who must endure unimaginable 
pain and suffering, due, for no other reason, than because of 
their gender.
    You will recall in 2009, Secretary of State Hillary Clinton 
testified before the House Foreign Affairs Committee. At this 
hearing, Secretary Clinton unequivocally condemned the forced 
abortion and sterilization practices in China. She said at that 
hearing, ``I consider any governmental imposition that imposes 
government policy on women to be absolutely unacceptable. And I 
feel strongly about forced sterilization, forced abortion, or 
any other egregious interference with women's rights.''
    The Secretary State spoke clearly on practices that I, too, 
find deplorable and, frankly, unacceptable. I believe the women 
and men at the State Department have worked and will continue 
to work with the Chinese to address this very serious human 
rights issue. And I was actually surprised to hear of the 
comments of the Vice President, because, actually, I have heard 
very much the opposite from him as well as from the 
administration in terms of their considering the one-child 
policy to be absolutely deplorable.
    The measure in health, the society is based on how we treat 
our citizens and the people found within our borders, while 
these words have been said time and time again, these words and 
their meaning are critically important to all our societies, 
whether we are American or Chinese. It is a measure of the 
society before us and of a future society where peace, freedom 
and justice is an idea worth achieving. It is a reminder that 
while governments, no matter how powerful, may make and carry 
outlaws, it is people who are the truest measure of these laws.
    While nations should be able to set policies and laws that 
are in the best interest of its people, nations must do so with 
the deepest respect and in accordance with international 
standards and with an eye toward observing always human rights.
    These human rights instruments that have been passed before 
by the United Nations among many others are more than mere 
words on a page. They were crafted after much deliberation from 
expert scholars, civil societies and the aftermaths of events 
that made us question the very essence of our humanity, such as 
the convention on the elimination of all forms of 
discrimination against women are the international covenant on 
civil and political rights. These instruments are fundamental 
to prevent atrocities of all forms from taking place today and 
into the future. They are our guides to a global society that, 
despite cultural difference, uphold inalienable rights that 
cannot be undermined or struck down. Thank you very much.
    Mr. Smith. Ms. Bass, thank you very much for your opening 
statement. I would like to yield to Ann Marie Buerkle, 
gentlelady from New York.
    Ms. Buerkle. Thank you, Mr. Chairman. Thank you also to our 
witnesses for being here today. Your courageous efforts to 
bring attention to human rights abuse in China are exemplary 
and future generations will be indebted to you for your courage 
and your devotion to the cause of creating a free and fair 
China. Thank you very much for being here.
    Over the course of the past decade, China's rapid 
advancement has fascinated people around the globe. It seems 
every day, there are more and more reports about China's 
increasing strength. Today, there is no doubt that China is a 
major player on the world stage and challenges America's 
leading role in world affairs. Sadly, there is an ugly 
underbelly to China's impressive assent. Our fascination with 
China's advancement is matched by our horror of China's human 
rights abuses. While China's economic and technological 
development has sped forward, civil and human rights in the 
nation have remained very backwards.
    The story of Ms. Feng is heart-wrenching. Seven months into 
her pregnancy, the 23-year-old Ms. Feng was forced to undergo a 
horrific abortion procedure. Her case is a perfect 
demonstration of both the general persecution Chinese citizens 
face at the hands of the Chinese state, and the particular 
atrocious practices of governmental officials who have resorted 
to forced abortions and sterilizations to comply with China's 
one-child policy.
    There is no question that China is becoming a leader in the 
global community and therefore it is up to the global community 
to hold China to a human rights standard. We cannot stand by 
while China continues to commit human rights abuses. For this 
reason, it is essential that the Obama administration pursues 
Ms. Feng's case to a proper and just conclusion.
    The case that she presents to America is an opportunity for 
America to take a lead in condemning China's abominable 
practice of forced abortions. As a Nation, and as a world, we 
must demonstrate the courage to assert what is right and to 
help this horrific phenomenon. I yield back.
    Mr. Smith. Thank you, Ms. Buerkle. I yield to Chairman Joe 
Pitts, the gentleman from Pennsylvania.
    Mr. Pitts. Thank you, Mr. Chairman, for permitting me to 
sit with your panel today, and thank you to the witnesses for 
coming forward with your testimony. I would like to, first, 
thank you for holding this important hearing, Mr. Chairman. 
Just a few weeks ago, when I received the first report on 
forced abortion performed on Feng Jianmei who was 7 months into 
her pregnancy, I immediately took to the House floor to decry 
this horrible practice and violation of human rights and this 
instance of violation of the human rights of this young lady.
    Although China's Central Government denies culpability for 
forced abortions by blaming them on the local officials that 
act outside the law, China's one-child policy is undeniably the 
culprit. The Central Government's coercive policy relating to 
childbirth has led to the stigmatization of having multiple 
children. This is especially the case for having a baby girl.
    In recent years, the effects of China's one-child policy 
are finally being manifested by China's precarious population 
growth and gender gap. It now seems that consensus in China is 
building toward reforming the policy. Advocates for reform make 
arguments relating to China's economic prowess and its 
demographic future. I advocate that China break with the policy 
to put forced abortion to an end so that it might live up to 
its human rights obligations.
    China must end the policy at the Central Government level 
and hold those issuing forced abortions responsible for their 
crimes. The government can start by seeing that justice is done 
in the case of Feng Jianmei and her baby girl.
    Again, I thank Chairman Smith for holding this important 
hearing and I look forward to hearing the testimony of our 
witnesses today and I yield back.
    Mr. Smith. I would thank Chairman Pitts for joining us and 
for his leadership on human rights for many years, especially 
as it relates to China. Without objection, I do recognize 
myself for an additional 2 minutes just to, again, point out 
that a picture is worth a thousand words. And the picture of 
Ms. Feng's baby having been aborted at 7 months gestation, and 
then crudely put next to her in the bed is a picture that has 
awakened the conscience and the concerns of people around the 
world. That picture, sadly, is replicated and has been done 
over and over again, tens of millions of times throughout 
China, but in this case, there is a picture, and now it is 
posted and people are finally, at long last, seeing the 
gruesome reality of China's one-child-per-couple policy with 
its reliance on forced abortion, which is cruelty beyond words. 
And that is what that picture has helped to spark. Hopefully 
people within the Government of China itself will look at that, 
because it is has made its way throughout all of China as well 
and realize that that kind of barbaric behavior toward children 
and mothers and women is absolutely unacceptable in any 
civilized society.
    I would like to now, having completed my opening statement, 
just make a statement for the record: I would like to point out 
for the record that the written testimony of T. Kumar from 
Amnesty International, who has been before this committee many 
times before had not been presented to the subcommittee, the 
subcommittee was not notified about Mr. Kumar's participation 
at the hearing until last Friday evening. He was not noticed 
publicly until 11:52 a.m. today. Therefore, without objection, 
in this exceptional circumstance and pursuant to rule 6(b) of 
the committee rules, Mr. Kumar's statement, as well the written 
statement of all our witnesses, will be submitted for the 
record if he would like to submit one. Welcome, Mr. Kumar.
    I would like to now introduce our distinguished witnesses 
beginning first with Pastor Bob Fu, who was a leader in the 
1989 student democracy movement in Tiananmen Square, and then 
became a house church pastor that he founded along with his 
wife. In 1996, authorities arrested and imprisoned them for 
their work in China. After their release, they escaped to the 
United States, founded the ChinaAid Association; ChinaAid 
monitors and reports on religious freedom in China and provides 
a forum for discussion among experts on religion law and human 
rights in China. Pastor Fu is frequently interviewed by media 
outlets around the world and has testified before congressional 
hearings, including the Congressional-Executive Commission on 
China hearing held a few weeks ago where we were able to hear 
directly from Chen Guangcheng.
    Then we will hear from Ms. Reggie Littlejohn, who is 
founder and president of Women's Rights Without Frontiers, an 
international coalition that opposes forced abortion, 
gendercide and sexual slavery in China, and frankly, anywhere 
else in the world where it occurs.
    She has legally represented Chinese refugees in their 
political asylum cases as an attorney, and testified before the 
European and British Parliaments, the White House and Congress. 
Ms. Littlejohn has served as an expert on China's one-child 
policy for ChinaAid, and Human Rights Without Frontiers has 
issued several ground-breaking reports about the incalculable 
suffering caused by the coercive enforcement of the one-child 
policy.
    Then we will hear from Mr. Steve Mosher, who is the 
president of the Population Research Institute, and the author 
of numerous books on China. I have read three of his books, 
including A Mother's Ordeal, and it brought great insight to me 
and to anyone else who took the time to read those powerful 
books.
    In 1979, he became the first American social scientist 
permitted to conduct field research in China since the 
Communist Revolution. He was the man who broke the story of the 
one-child-per-couple policy. Frontline, 60 Minutes, the Beijing 
bureau chiefs of The Washington Post and others back in the 
early 1980s relied on his breakthrough research about what 
women were experiencing as the direct result of the horrific 
one-child-per-couple policy. He has worked on human rights 
issues ever since and has brought great insight to this issue.
    We will then hear from Yanling Guo who was forced by the 
Chinese officials to undergo a forced abortion at 8 months. Her 
husband was subjected to a forced sterilization as well, as 
well as torture and multiple imprisonments. They have three 
children and have been fleeing Chinese authorities for 21 
years. They are now in Bangkok and have applied for refugee 
status through the UNHCR.
    And finally we will hear from Mr. T. Kumar, who is Amnesty 
International's Director for International Advocacy. He, too, 
has testified before the U.S. Congress on numerous occasions to 
discuss a broad array of human rights abuses. He has served as 
a human rights monitor in many Asian countries, as well as in 
Bosnia, Afghanistan, Guatemala, Sudan, and South Africa.
    He also served as director of several refugee ships and 
camps. T. Kumar was a political prisoner for over 5 years in 
Sri Lanka for his peaceful human rights activities. Amnesty 
International adopted him as a prisoner of conscience when he 
was incarcerated. He started his legal studies in prison, and 
eventually became an attorney at law and devoted his entire 
practice to defending political prisoners.
    Pastor Fu, if you would begin.

  STATEMENT OF PASTOR BOB FU, FOUNDER AND PRESIDENT, CHINAAID 
                          ASSOCIATION

    Pastor Fu. Mr. Chairman, and members of the committee, 
thank you so much for organizing this timely hearing today. 
Again, I am very grateful this committee gave the platform to 
really make those vulnerable voices heard.
    On June the 2nd, in Zeng Family town in the city of Ankang 
of Shaanxi Province, Ms. Feng Jianmei, more than 7 months 
pregnant, was abducted by local government officials and taken 
to a hospital where she was forcibly aborted of her unborn 
baby.
    On June 6, local family planning officials and government 
officials in Changsha, Hunan Province, dragged Ms. Cao Ruyi, 
who was 5 months pregnant to a hospital, beat her and were 
about to force an abortion on her. However, due to the 
immediate advocacy of ours and especially a timely letter from 
Mr. Chairman, Congressman Chris Smith to the Changsha 
Government in Hunan Province. I still remember I received your 
phone call even on the Sunday, Sunday morning in the church. As 
well as the efforts of the international community, Ms. Cao 
Ruyi and her unborn baby are safe for the moment.
    On June 19, a pregnant Hu Xia of Zhengjiamen village of 
Shangche, Hubei Province, was forcibly taken to People's 
Hospital by local officials and given an injection to induce a 
miscarriage. Two days later, she delivered that nearly 8-month 
fetus.
    These three cases in June alone expose the government's 
rule in forced abortions in China, shocked the international 
community and set off a wave of criticism. However these cases 
are only the tip of the iceberg; numerous forced abortion 
tragedies occur every single day in China. The massive 
violation of the rights of women and their unborn babies 
through government action and by legal means in the 
implementation of China's forcibly enforced one-child family 
planning policy has been going on for over 30 years already.
    The international community is late in expressing its 
concern and criticism. In this context, even more does U.S. 
Congressman Mr. Smith, Mr. Chairman, deserve or respect for 
your long but persistent cries and efforts to end China's 
forcibly enforced one-child policy. Your contribution will be 
remembered in the history of human rights in China and the 
world.
    I will give a brief introduction to the Feng Jianmei's 
case. On June 11, after Mr. Huang Qi a veteran political 
dissident from Sichuan Province, who himself suffered 
tremendous persecution over the years, was the first to post 
Feng Jianmei's story on his Web site called the 64Tianwang, 
accompanied by that picture that you just showed on the screen. 
It attracted worldwide attention and condemnation. Feng 
Jianmei, a villager from Zhenping County, Ankang City, Shaanxi 
Province was abducted by the officials and taken to the 
hospital by June 1 while her husband, Deng Jiyuan was working 
out of town. On June 3, her 7-month-old unborn baby was 
forcibly aborted. Upon learning of Feng Jianmei's case Mr. 
Zhang Kai, a young, well-known Chinese Christian lawyer, wrote 
on his blog publicly announcing that he was willing to take on 
this case.
    Mr. Yang Zhizhu, a former law professor at the China Youth 
College of Political Sciences, who has long been concerned 
about, and has condemned the one-child policy, also started to 
take part in this rights defense case. In the face of powerful 
condemnation from the international community, China's official 
media reported on June 15, that Ankang City officials in 
Shaanxi province had visited the forced abortion victim Feng 
Jianmei and her family the previous evening and apologized to 
her, and said they would hold accountable the officials who 
were involved.
    On June 22, the government retaliated by beating Feng 
Jianmei's husband, Deng Jiyuan, and putting him under 
surveillance. On June 24, the government sent people to display 
a banner in front of their home that read, ``beat up traitors, 
run them out of Zeng family town.''
    After dinner that day Deng Jiyuan shook off his tails and 
escaped. In the following 3 days, about 83 hours, he avoided 
multiple closely guarded government checkpoints. And on the 
night of June 27, boarded a train in Shiyan City, Hubei 
Province. After he arrived in Beijing on the morning of the 
June 28, he met with lawyer Zhang Kai and Professor Yang Zhizhu 
and signed papers authorizing them to be his legal 
representatives in filing lawsuits and applying for state 
compensation.
    The Zhenping County official director, the newly appointed 
mayor of the Zeng family town and village official from Yuping 
Village where Deng Jiyuan lives went to Beijing, and on July 1 
at 3 o'clock p.m., they met and talked with lawyer Zhang Kai 
and Yang Zhizhu. They were hoping to see Deng Jiyuan in person. 
During the meeting, the village officials continued to claim 
that abortion was not a big deal where they are from.
    On July 7, lawyer Zhang Kai sent a legal letter to the 
Public Security Bureau and Procuratorate of Ankang City, 
Shaanxi Province, requesting them to place the case on file and 
start a criminal investigation.
    The Chinese society and the international community should 
make every effort to end this ongoing tragedy of China's 
forcibly enforcing the family planning policy. That Feng 
Jianmei's case attracted such widespread concern from the 
Chinese public and the international community so quickly is 
attributable to three main factors: The larger context of the 
recent Chen Guangcheng incident, the photo showing the 7-month 
dead fetus and the despair on the mother's face, and the timely 
participation of many lawyers, including Christian lawyers in 
China. This is the result of the united efforts of people 
inside and outside of China who stand for justice.
    On July 5 the European Parliament voted on and passed a 
resolution on the forced abortion scandal in China in response 
to the tragedy of Feng Jianmei's forced abortion, strongly 
condemning the human rights abuses committed in the enforcement 
of China's one-child policy. This is a historic step made by 
the international community in attaching great importance to 
the rights of women and children. On the same day in China, in 
response to Feng Jianmei's case, five prominent Chinese 
scholars and another 10 of corporations, including corporation 
leaders, issued an open letter cosigned by other influential 
academics to the National People's Congress and its standing 
committee.
    The cosigners were 10 others from of China's top 
universities, including Beijing University, Qinghua University, 
China's People's University, Chinese University of Political 
Science and Law, Beijing Normal University. The letter asked 
legislators to completely revise the population and the family 
planning law to repeal restrictions on citizens' reproductive 
rights, and to abolish the birth approval system and the system 
of social child raising fees.
    Mr. Chairman, I want to request to put the record of this 
open letter by these brave 15 scholars, and because of the time 
restraints, we are not able to complete the translation this 
morning, we will make sure by tonight we will send you the 
translation of these very important open letter.
    Mr. Smith. Without objection, so ordered, and we will keep 
the record open until we receive the English translation.
    [The letter referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Pastor Fu. Thank you. Now in Feng Jianmei's case we see not 
only the great force of justice in Chinese society and the 
international community, but also that in a Chinese society 
where political corruption and a bankrupt moral ethics prevail, 
the Christian faith is providing strong support to the people's 
pursuit of justice and love. Also giving them the courage to 
stand up to evil forces. The forced abortion victim Feng 
Jianmei and her husband, Deng Jianmei, are both Christians. On 
the very night when Deng Jianmei fled to Beijing, he 
fellowshipped with lawyer Zhang Kai and Yang Zhizhu. As a 
Christian rights defense organization, ChinaAid in its 10 years 
of ministry has witnessed the Christian faith bringing great 
changes to the life of the Chinese people and the Chinese 
society. These changes will eventually bring forth a prosperous 
China that upholds justice, love and peace and actively 
shoulders its international responsibilities.
    Feng Jianmei's tragedy is repeated hundreds and thousands 
of times each day in China. Recently, China Aid learned of more 
such cases. Guo Yanling who will testify later today, also a 
Christian, from Guangxi Province was persecuted by the 
government for having more than one-child and forced into exile 
for 21 years with her husband and three children. The wife of 
Wu Liangjie from Xianyou City, Fujian Province was abducted and 
held by the government. On April 6 this year, she was forcibly 
aborted of her more than 7-month unborn baby boy.
    We at ChinaAid are willing to work with everyone in and 
outside of China to end this long and violent war against the 
millions of women and children in China. We call upon Congress 
and the administration to follow the examples of the European 
Parliament in taking specific measures and steps to help China 
and this cruel one-child policy, and the evil practices of 
forced abortion and forced sterilization. We urge the Obama 
administration to add this issue of human rights abuses and 
family planning to the agenda of bilateral talks on human 
rights and the U.S.-China Strategic and Economic Dialogue. We 
ask the Senate and the House to pass a strong joint resolution 
to express the will of the American and Chinese people to work 
toward the abolishment in China of the one-child policy.
    Finally, those abusive officials should be held accountable 
according to international law for their evil illegal behavior 
in harming women and unborn babies. The State Department should 
place travel bans on individuals like them who carry out 
China's forced abortion policies, and make sure that no U.S. 
funds go to assist China's family planning agencies.
    And by the mercy and grace of our Lord Jesus Christ, let us 
make concerted efforts for the arrival of that day. Thank you 
very much for hearing me.
    Mr. Smith. Thank you so very much for your leadership and 
your for your testimony.
    [The prepared statement of Pastor Fu follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Smith. Ms. Littlejohn, please proceed.

  STATEMENT OF MS. REGGIE LITTLEJOHN, FOUNDER AND PRESIDENT, 
                WOMEN'S RIGHTS WITHOUT FRONTIERS

    Ms. Littlejohn. Thank you, Chairman Smith, and also members 
Buerkle and Pitts for the opportunity to be here. This feels 
like home to me right now because to my right is Bob Fu, and as 
you know, I started out as the expert on the one-child policy 
for ChinaAid and now I have my own organization. And to my left 
is Steve Mosher who broke this news to the West in the 1980s 
and whose book was one of the most important books that I read 
in deciding to become involved with this.
    And, of course, T. Kumar and Amnesty International have 
taken a leadership role on all of this forced abortion in China 
condemning it on human rights bases.
    I am also thrilled that the European Parliament has passed 
a resolution strongly condemning forced abortions and 
sterilizations globally and has called for a review to assure 
that funding it ceases from these various organizations.
    Now as this committee is aware, there have been several 
cases that have happened in quick succession in June of forced 
abortions. Number one is the case of Feng Jianmei, whose 
photograph and story Women's Rights Without Frontiers actually 
broke to the West on our blog. We have heard some detailed 
testimony about this.
    The next case is that of Cao Ruyi of Changsha City, Hunan 
Province, who also, at the same time, within a few days of the 
Feng Jianmei case, it was reported she, at 5 months pregnant, 
was being dragged out for a forced abortion and being fined the 
American equivalent of $24,000, an astronomical amount in 
China. And due to intervention of various organizations and 
Christopher Smith, she was able to get out of the clutches for 
the time being with a lesser fine, but she remains in jeopardy.
    I also want to bring up the efforts of another outstanding 
organization, Women's Rights in China, President Jing Zhang who 
has been in touch with Feng Jianmei and Cao Ruyi and actually 
had arranged for Cao Ruyi and her husband to be in hiding right 
now.
    Then there is the case of Hu Jia, June 19, 2012. It was 
reported in China's Southern Metropolis Daily that she was 
forcibly aborted at nearly 8 months. And the fact that this 
case was reported by a major Chinese newspaper indicates that 
there may be a turning of the tide inside of China that major 
news organizations now are willing to step in and condemn these 
abuses.
    And then finally, there is the case of Zhang Wen Fang of 
Hubei province, her forced abortion occurred at 9 months, but 
it was in 2008. However, she stepped forward seeing the other 
women step forward and not only was she forcibly aborted at 8 
months, but she had her uterus, her cervix and one of her 
ovaries removed. She been a successful business owner before 
this happened, and now she is completely disabled in a 
wheelchair. She said her son is like an orphan, her older child 
is like an orphan and she is dependant on her aging mother.
    Now why is it that all of these cases have sprung forth so 
quickly? Is it that there has been a crackdown in China? There 
are more forced abortions happening right now? No, I do not 
believe that's the case. Forced abortion in China has been 
happening for decades. And it is not that there is a sudden 
crackdown. I believe that the reason that these cases have 
emerged has to do with the fact that just 2 weeks before the 
first cases emerged, Chen Guangcheng came to the United States. 
Chen Guangcheng is the moral towering figure over this entire 
issue and has sacrificed more than anyone else on behalf of the 
women and babies of China and his miraculous escape, his coming 
to the U.S. Embassy, the whole drama that ensued there that 
finally ended up with him coming to Newark, New Jersey on May 
19 is something that gripped the world, but also China.
    And instrumental to, I believe, both Chen Guangcheng's 
release and to the publicity within China that resulted in 
these cases coming forward was the efforts of Voice of America. 
Voice of America stands alone as the voice of the West being 
able to penetrate and get over that firewall in China. I have 
been interviewed for Voice of America over 10 times, I can tell 
you that the first time I was interviewed, many people called 
in and said they never heard of Chen Guangcheng or don't 
believe that forced abortion is happening in China. And by the 
time that Chen Guangcheng was coming to the United States, 
everybody knew who he was and everybody know about the reality 
of forced abortion in China.
    And so I believe that this ability to reach the Chinese 
people with the truth through Voice of America was instrumental 
both in building the movement insides of China's free Chen 
Guangcheng, and also giving women the courage inside of China 
to come forward, because if the miraculous could happen, if 
Chen Guangcheng could escape as a blind sick man from Dongshigu 
Village with a broken foot and make his way to the Embassy and 
come to the United States, if the impossible can happen for 
him, then it can happen for the women in China. That is why I 
believe that these women have come forward.
    Now at the same time, there has been an international 
movement in the one-child policy and that has to do with the 
publicity that has been generated by the West. And Congressman 
Chris Smith has stood head and shoulders above anybody else in 
this, hearing after hearing after hearing about Chen Guangcheng 
and about the one-child policy. And as I mentioned to 
Congressman Smith last week, there was a very similar case that 
came out in the hearing on November 10th, 2009, Wang Li Ping 
was also forcibly aborted at 7 months, we also had a picture of 
her lying on the bed next to her forcibly-aborted baby, it was 
equally heart rending. And then there was also the case of Lu 
Dan who died during forced abortion at 9 months.
    Those two cases were in my original report in 2009, they 
are equally serious as the current cases and yet it never made 
it into the mainstream media. Why? I believe it is the 
incremental effort of Congressman Chris Smith, all of these 
hearings, the people sitting around me, Voice of America and 
other media, case by case, hearing by hearing, press release by 
press release, getting the word out, getting the word out, 
getting the word out, to the point now where we have a major 
international movement which could actually lead to the end of 
this horrific policy.
    So leading that charge right now is the European Parliament 
of all places. I have testified twice at the European 
Parliament. In fact, when I was there in 2008, I was told I was 
the first person ever to have testified there exclusively on 
the one-child policy. In 2008, I was one of a dozen experts, I 
had 8 minutes. In 2011 when I testified again, I had 1 hour and 
15 minutes and I was the only person testifying. That is an 
indication of the growth and importance that this issue has 
taken over the years because of all of our efforts.
    So they have now passed a resolution strongly condemning 
forced abortion in China, specifically naming Feng Jianmei and 
also specifically admitting that they are funding programs that 
do population control or family planning in China and asking 
for an inquiry to be made to make sure these programs--which 
would include the UNFPA and IPPF--are not complicit with forced 
abortions. I am very excited about this inquiry because I 
firmly believe that any unbiased inquiry is going to reveal 
complete complicity between the UNFPA and International Planned 
Parenthood, and forced abortion in China. You cannot help the 
Chinese Communist Party with their population control program 
without being complicit with forced family planning. And I have 
to say when we see forced abortions and forced sterilization, 
infanticides happening all over the place, on one hand and on 
the other hand, we hear silence from organizations like UNFPA 
and IPPF, silence is complicity.
    Furthermore we have now seen within China a building 
movement, and the first of which is that according to the China 
Economics Times, several researchers in the Developmental 
Research Center, a prestigious government-affiliated think 
tank, have cited the coming demographic disaster as a reason to 
move away from a one-child policy and they have now proposed a 
two-child policy.
    I just want to say I do not think that a two-child policy 
is the answer to the one-child policy. And if China moved to a 
two-child policy, you are not going to be hearing Women's 
Rights Without Frontiers declaring victory. There are two 
problems with a two-child policy: Number one, in the 
countryside of China today, they already have a two-child 
policy in the sense that if your first child is a girl, you can 
have a boy and that--you can have a second child. And the way 
that is interpreted by many couples is they have a second 
chance to have a boy, and that is where this gendercide comes 
in. Demographers have found that for the first child, they are 
willing to let nature take its course, but when they have a 
girl and they have one child left, that is where you get on the 
second child 140 boys born for every 100 girls born on average. 
And there are two provinces in China, Jiangsu and Anhui, where 
on that second child, there are 190 boys born for every 100 
girls born. So, that is gendercide, the sex-selective abortion 
of baby girls that happens in the context of a two-child 
policy.
    The second reason I don't think that a two-child policy is 
a solution to the one-child policy is that, for me, the issue 
is not whether the government allows a woman to have one child 
or two children; the issue is that the government is telling 
people how many children they can have and enforcing that limit 
coercively. So even if there is a two-child policy, women are 
still going to have to have a birth permit, and they will still 
be subject to forced abortion if they don't have one on that 
first and on that second child.
    The second group calling for reform within China is a group 
of very prominent and brave scholars who have criticized the 
one-child policy on the basis that it violates human rights. 
And one of their leaders, James Liang, is calling for the 
abolition of the one-child rule. And I just salute his courage.
    Now, Women's Rights Without Frontiers has come up with six 
policy recommendations, and they are all in my testimony. I 
just want to highlight one of them, which is that we should 
pass--we would encourage Congress to pass an act concerning 
United States corporate responsibility in China. I just think 
that this would be absolutely essential. We are talking about 
governmental efforts from our Government to their government, 
and we have--Women's Rights Without Frontiers has a number of 
recommendations on that front, and I think that they are all 
very important; however, I think that there is a major role 
that United States corporations can play.
    I would like to recall to this committee the testimony of 
Ping Liu, who testified actually before this very committee on 
September 22, 2011, and she testified to the fact that she had 
five forced abortions. She couldn't have contraception because 
she had a kidney problem, so she just kept having abortions.
    But what she talked about, and this was in the 1980s, is 
that in her factory they had this surveillance system. They had 
family-planning officials like a department in the factory, and 
they had collective punishment, so that if one woman on her 
floor or in her group were pregnant, the entire group would be 
punished. So all of the women were watching each other. They 
were basically exposing each other for forced abortions. Every 
month women had to undress, and in the nude they had to present 
themselves before family-planning officials to demonstrate that 
they weren't pregnant.
    So what I would like to know is are these practices still 
going on in China? This testimony is on practices from the 
1980s. We don't have any more recent testimony on this. I would 
like to find somebody who is a recent person that has come over 
from China and has experienced what happens in factories. But I 
would also be very surprised if U.S. or other foreign factory 
owners--whether the women in those factories get a free pass on 
the one-child policy because their factory happens to be owned 
by a foreign country or a foreign corporation.
    It might be very difficult to investigate this, very risky, 
but I think it would be a great thing for the United States 
Congress to pass a corporate responsibility act for 
corporations that are doing business in China to say that they 
will not comply even with Chinese law to the extent that that 
law would cause them to commit crimes again humanity, 
including, but not limited to, forced abortion.
    Thank you.
    [The prepared statement of Ms. Littlejohn follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Thank you very much, Ms. Littlejohn, for your 
testimony, and your recommendation, I think, is a good one. We 
are looking into it. You have raised this before, and I thank 
you for that.
    I would like to now ask Steve Mosher if he would proceed.

STATEMENT OF MR. STEVEN MOSHER, PRESIDENT, POPULATION RESEARCH 
                           INSTITUTE

    Mr. Mosher. Thank you, Mr. Chairman, for holding this 
important meeting, and, Congresswoman Buerkle and Chairman 
Pitts, for taking the time to attend. I appreciate your 
interest in this issue. I believe that every minute of 
attention that we can focus on China's one-child policy saves 
lives in China.
    I would like to focus on one particular aspect of the one-
child policy, and that is the support that it receives, 
financial and otherwise, from international organizations, 
chiefly the United Nations Population Fund. In fact, I have 
entitled my testimony ``China's One-Child Policy and the U.N. 
Population Fund: A Deadly Partnership'' because I believe it is 
the case, and I believe we have collected evidence in an 
unbiased inquiry of the U.N. Population Fund's continued 
involvement in forced abortion and forced sterilization. Let me 
tell you what I mean.
    Thirty-two years ago I was an eyewitness to the forced 
abortion of several dozen women, who, like Feng Jianmei, were 
7, 8, and even 9 months pregnant. Now, the Chinese Government 
at the time, this was in 1980, echoed by the U.N. Population 
Fund, claimed that these were local aberrations, these were 
overzealous local officials, and certainly this was not in any 
way supported by or encouraged by national policy. This was not 
true then, and it is not true now.
    Beijing continues to vigorously pursue its one-child 
policy, ignoring human rights violations, the skewed sex 
ratios, the labor shortages, the massive infanticide and sex-
selective abortion of baby girls. And China continues, after 
all these decades, to be supported in these atrocities by the 
U.N. Population Fund, and supported in very, very specific 
ways. Now, let me detail the U.N. Population Fund's 
involvement.
    I know that you, Mr. Chairman, remember in the late 1990s, 
the U.N. Population Fund was very proud of the fact that it was 
setting up model birth control counties in China. In fact, it 
wrote a letter to the U.S. Congress--the then-head of the U.N. 
Population Fund wrote a letter to the U.S. Congress saying in 
those counties there will be no abuses. In these 32 counties 
where they were taking over the management of the birth-control 
program, the program would be fully voluntary. It would be 
untainted by coercion. There would be no targets and quotas. 
There would be no abortion as a method of family planning. 
Women would be free, the letter said, to voluntarily select the 
timing and spacing of their pregnancies.
    Now, several years later, 5 years later to be exact, the 
U.N. Population Fund added another 40 counties to the list of 
model birth control counties, so there are now 72 model birth 
control counties run by the UNFPA, or so it claims, in China. 
And in those counties, it claims, there are no abuses of the 
kind that we have heard this morning.
    Well, we at the Population Research Institute, and I 
personally, have visited five of these model family-planning 
counties where the UNFPA officials are supposedly in charge of 
the program and where there are no violations: Fengning County 
in Hebei Province; Luan County in Hebei; Wenshui County in 
Shaanxi; Sihui County in Guangdong. The list goes on. And in 
those counties we found forced abortions. We found targets and 
quotas for abortions and sterilizations. We found cases of 
late-term abortions. We found all of the abuses that have 
characterized China's family-planning program, one-child 
policy, from the beginning in these counties where the program 
is managed by the U.N. Population Fund.
    So I believe on the basis of our inquiry, it is very clear 
that U.N. Population Fund officials who are managing these 
programs, and who are trained by the U.N. Population Fund, and 
who may, in fact, be paid by the U.N. Population Fund, are, in 
fact, overseeing a program of forced abortion, forced 
sterilization, late-term abortion, infanticide, and all the 
rest.
    I believe there is compelling evidence to suspend funding 
to the UNFPA this time not on a temporary basis, but this time 
by law and permanently.
    A couple of other things that I will just mention in 
passing. The population-control authorities in China, echoed by 
the U.N. Population Fund, have long claimed that minorities, 
because of their minority status, because of their limited 
numbers, are exempted from the one-child policy. The county, 
Fengning County, in northern Hebei Province that we visited and 
collected evidence in, in fact is a Manchu autonomous county. 
It has a majority of Manchus living there. The Manchus that we 
talked to said, no, we have the one-child policy imposed on us, 
just like our neighboring Han Chinese do.
    Secondly, the punitive fines which exist in model family-
planning counties, couples who give birth to a second child, 
one document from a model family-planning county says, will be 
assessed a fine from five to seven times their annual income. 
Those who illegally give birth to a third child will be 
assessed a fine from seven to nine times their annual income. 
And those who give birth to four or more illegal children--I 
don't know how they do it, but the rule is there--will be 
assessed a fine extrapolated from the above schedule of 
multiplists. So it could be 10 or 12 or even higher times the 
annual income.
    There is child abduction and child trafficking in these 
model family-planning counties. We were told by local 
officials, <greek-l>quote,  deg.``At the present time, if you 
don't pay the fine, they come and abduct the baby you just gave 
birth to and give it to someone else''; give it in some cases 
to local orphanages, which then adopt these babies out and make 
a profit on that transaction as well. So we have child 
trafficking as part of the program.
    This morning, a friend of mine sent me another story about 
women or couples who are ``selling their second children.'' 
Pregnant with an illegal child, realizing that they couldn't 
afford the fine, realizing that they would be, when located by 
the population control officials, taken in by force and 
forcibly aborted, they were looking for people to give their 
children to, to sell their children to.
    Now, the government professes to be shocked by this 
development of selling unborn babies to the highest bidder and 
determined to stamp it out. This is the height of hypocrisy. It 
is hypocritical for the Chinese Government to complain about 
the buying and selling of babies, because it is the Beijing 
regime itself that has turned babies into commodities by 
putting a price on their heads, a price of tens of thousands of 
dollars on their heads, and allowing them to be sold by state-
run orphanages.
    I will only mention one specific case. We interviewed a 
woman in China who, in order to throw the population control 
police off her scent, gave--went when she was 6 months pregnant 
to a neighboring village, gave birth to the baby safely there, 
left it in the custody of a cousin of hers, and then on the way 
back home, knowing that she was going to be visited by the 
population control police, stopped by an abortion clinic and, 
after paying a small bribe, was given the dead body of a baby 
girl who had been aborted the day before, brought home the 
corpse to her house.
    As soon as the population control officials heard that she 
had returned to her village, they came to either collect the 
money or collect the baby. She held the corpse of the dead baby 
girl out, didn't say a word. And they said, oh, your baby died, 
and left. That illustrates the extremes to which couples in 
China have to go to protect their children.
    So conclusions, there are three. First, China's one-child 
policy constitutes the longest-running and most far-reaching 
violation of human rights the world has ever seen, both in the 
sheer number and in the duration of the human rights 
violations. Four hundred million Chinese children, give or take 
a few tens of millions, are dead because of this policy which 
has left their mothers wounded in both body and spirit and 
killing themselves in large numbers.
    Second, the one-child policy is, as it has always been, 
coercive not by accident, but by design. The abuses we have 
talked about today are not occasional missteps by overzealous 
officials, they are the very lifeblood of the program. The one-
child policy, like all political campaigns launched by the 
Chinese Communist Party, is deliberatively coercive. The 
extraordinary pressure that the highest levels of the Chinese 
Government put on lower level officials to collect fines and 
meet quotas can have no other outcome than brutality, cases 
like Feng Jianmei's.
    And finally, the U.N. Population Fund has been complicit in 
China's one-child policy from the inception of the one-child 
policy. It does not merely turn a blind eye to abuses, but it 
facilitates them in various ways. This is nowhere more clearly 
illustrated than in the U.N. Population Fund's model family-
planning counties, model birth-control program, where UNFPA-
trained officials oversee the enforcement of the one-child 
policy, and where human rights abuses are nonetheless rampant.
    And I have just one policy recommendation, Mr. Chairman. I 
would repeat what I said to you probably back in 1983: The U.N. 
Population Fund should be defunded; this time, however, the 
cuts should be permanent.
    Thank you.
    [The prepared statement of Mr. Mosher follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Mr. Mosher, thank you very much for your 
incisive testimony and for your decades--again, having been the 
man that broke the story itself.
    And I would note parenthetically, and I think the 
subcommittee members are aware of this, Stanford University 
actually retaliated against you. It was so bad, I will never 
forget it, the Wall Street Journal did an editorial in your 
favor, and it was entitled ``Stanford Morality.'' And it talked 
about how, in the interest of having access and the continued 
programs with China, they were willing to throw a human rights 
whistleblower who documented exactly what he saw and broke the 
story to the world--to put you in a--to deny you the ability to 
get your doctorate there. So thank you for that bold and 
tremendous leadership.
    I would like to now yield to T. Kumar from Amnesty 
International and welcome him back to the committee.

STATEMENT OF MR. T. KUMAR, DIRECTOR OF INTERNATIONAL ADVOCACY, 
                     AMNESTY INTERNATIONAL

    Mr. Kumar. Thank you very much, Mr. Chairman.
    First of all, Amnesty International would like to thank the 
committee collectively and you personally to inviting us and 
for all of the leadership you have done to lead human rights 
abuses around the world, and also Members of Congress who are 
here. Thank you very much.
    Amnesty International have documented human rights abuses 
in China over several decades, and one of the issues we 
documented is the one-child policy and abuses connected to it 
to enforce those policies. We have documented what other 
victims have previously said: Forced abortion, forced 
sterilization, and also family members have been caused or 
imprisoned or detained in reeducation-through-labor camps for 
objecting, or to exert pressure on the women who have been 
pregnant so far. We also have documented when some women tried 
to petition against forced abortion and sterilization cases, 
they have been detained in reeducation-through-labor camps and 
also imprisoned there for quite some time.
    So overall, what we have seen is this practice of enforcing 
one-child policy has contributed to numerous human rights 
abuses not only to these women, but also to the family members.
    Due to pressures by you as well as other leading 
governments around the world--and I will say you are the main 
champion--the Chinese Government took a very important step 
about 10 years ago. In 2002, they passed a new law pretty much 
humanizing or saying that they want to make sure that no human 
rights are violated in the process of enforcing the one-child 
policy. It is not that they got rid of the one-child policy or 
anything else; they said, you know, it should not be used for 
detaining or any other form of abuses.
    That was a landmark turnaround. We thought then that the 
abuses would be stopped. But to our disappointment, despite 
that particular law that was passed, to this day what we are 
seeing is the same abuses are continuing there. There is no 
political will from the government. This particular law came 
into effect primarily because of international pressure. So 
what says to us, to everyone, is that when the pressure is 
there, it has its impact. That is what this hearing also is 
going to achieve.
    Even according to the law they should have arrested certain 
officials who have been committing these abuses, but from 
Amnesty International's point of view, we could not able to 
find a number of cases of officials who have been detained or 
imprisoned. So by raising this issue, we want to see what can 
be done from an accommodation point of view.
    There is an opportunity that is coming out in 2 weeks' 
time. China-U.S. human rights dialogue is going to be taking 
place in Washington July 23-24. That is an opportunity for the 
U.S. Government to raise this issue, as well as other issues, 
with Chinese authorities. This is something you can take the 
leadership in exerting pressure on the administration to make 
sure that human rights is being discussed in a meaningful 
manner.
    Every year U.S. Government discusses human rights with 
China, but to our knowledge, discussion for the sake of 
discussion is taking place. It is not part of the mainstream 
dialogue that is being taken care in the name of security and 
economic data. So we would urge the U.S. Congress to urge the 
administration to include human rights as part of the dialogue 
of security and economic dialogue. It should be called 
security, human rights and economic dialogue, where human 
rights enjoys part and parcel of the whole issue of other 
importance that U.S. plays in terms of dealing with China.
    Before I close, I just want to highlight other human rights 
abuses that are taking place. The reason is that it is all 
interrelated. No one human rights abuses can stand alone if 
others systems are in place. For example, even one-child policy 
will not stand alone if others, like the reeducation-through-
labor system, is not there, if freedom of expression is there. 
So as a result, we have to address in a holistic manner, by 
giving importance to certain issues that can be highlighted, 
like one-child policy should.
    The reeducation through labor, there are almost 0.5 million 
people who have been detained without charge or trial. That 
figure varies because we don't know exactly what happens there. 
But the conservative figures we have come up is that system of 
reeducation through labor sent chills through the citizens 
where they can be locked up without charge or trial.
    Secondly, the lawyers, the legal profession, faces enormous 
pressure from the government if they speak out on human rights-
related issues. That also falls under this one-child policy 
issue or forced abortion. They can't take a position on this, 
so that issue also should be raised.
    Religious persecution, even though it is not directly 
involved, I would urge that the religious persecution issue is 
also at the top of the agenda for the U.S. Government when they 
deal with China. That penalty--again, I mean, you can argue 
whether the death penalty has decreased there or not. To this 
day China executes more people than the rest of the world 
combined despite all the amendments they brought in to reduce 
the number of sentences and executions.
    And finally, two more regions. One is Xinjiang and Tibet. 
In Xinjiang, Mr. Chairman, you knew, Rebiya Kadeer's two 
children are in custody. It should be raised at every meeting 
that the United States has.
    In Tibet, the issue of Panchen Lama, who was selected 15 
years ago by the Dalai Lama, still not to be seen, and the 
situation is getting worse.
    So in closing, Amnesty International urges you to ensure 
that during the upcoming dialogue, the U.S.-China human rights 
dialogue, human rights is discussed in a serious manner, and if 
they fail, then Congress should exert pressure to make sure 
that human rights is part and parcel of security and economic 
dialogue.
    Thank you very much for inviting us.
    Mr. Smith. Mr. Kumar, thank you very much for your 
testimony.
    I would hope, as you indicated, that the dialogue would be 
of some meaning. The problem has been is that it is often a 
gabfest with very little relationship to deeds. And the people 
who engage in it, listen and talk. These issues, if they are 
brought up, certainly are not brought up with the seriousness 
that they need to be brought up with.
    I think, you know, especially in light of the worsening 
instability of China because of its demographic nightmare that 
it is experiencing, the missing girls and the aging population 
vis-a-vis young people, that that instability, as Valerie 
Hudson testified here at a hearing we had last year, portends a 
very, very dangerous future for China internally that could 
very quickly become an expression of war or war actions 
internationally. She pointed out in her testimony that Japan 
and Taiwan were the two most likely victims of that kind of 
instability on the short and intermediate term. And, of course, 
others could be at risk futurewise. So it ought to be 
incorporated.
    To date, it is in my experience, and I would love to be 
proven wrong, that when these issue are brought up, they are 
brought up as an obligatory--if they are brought up--obligatory 
mention rather than a heartfelt expression of solidarity with 
the women of China, as well as with their children, including 
their unborn children.
    But thank you for that very strong point. It is a good one.
    We do have our next witness via telephone.
    Ms. Guo, you have got the floor. And thank you for 
testifying. Bob Fu will be translating for you. And, again, we 
deeply appreciate your willingness to speak.

  STATEMENT OF MS. YANLING GUO, VICTIM OF CHINA'S POPULATION 
                        CONTROL POLICIES

    [The following testimony was delivered telephonically 
through an interpreter.]
    Ms. Guo. Honorable Congressman Chairman Chris Smith and 
honorable members of the committee, friends for Chinese human 
rights, human rights in China, the following is my account that 
I was forced to abort my baby. The year was 1995. I was already 
8 months pregnant. At that time I was staying at my sister's 
house. It was in the morning on the day that the incident 
happened, and I was heading out to buy breakfast. I was dragged 
by the family-planning officials. Then I was forcibly dragged 
into a car, a van, by these family-planning officials. In the 
van, I was crying out and asked for help. Help, somebody rescue 
me, save me. But they grabbed me and held me down, and I had a 
cloth used to wipe cars stuffed into my mouth.
    I was then taken to the second floor of the hospital. As I 
was in the hospital, I saw a number of female victims sitting 
on the benches in the corridor and waiting to be forcibly 
abortion--for forced abortions. Later on, I was pinned down on 
the bed by force by these family-planning officials. And the 
person in white pressed my belly with her hands and felt the 
position of my baby's head. And she stuck a big, long, fatal 
needle deep into my abdomen.
    After about an hour later, because of my poor health, the 
baby was born by dragging. So at that point the person guarding 
me went to fetch a person and pull the baby out and put it on a 
small table less than 3 feet from me. It was a baby boy, my 
son. My son.
    [The following testimony was delivered telephonically 
through an interpreter by Mr. Deng on behalf of Ms. Guo.]
    Ms. Guo. By then my unborn baby had already been murdered. 
After that, the Chinese Communist Party's family-planning 
officials captured me, and then I was forcibly sterilized. I 
was beaten and without any strength to work anymore, I had to 
flee.
    I just want to seek justice after these wounds. Those 
officials didn't even admit any mistakes and what they have 
done to me. Not only that, I was also handcuffed by these 
family-planning officials. They used electric shock batons and 
electrified my hands. And I was imprisoned twice for this, for 
violations of China's one-child policy. And we were forced to 
pay heavy fines, and even our house was destroyed. In order to 
flee from the dangers, we had to escape. So we have been 
wandering around outside for 21 years. We finally managed to 
get to Thailand without any living supplies.
    I do hope the United States Government and all friends 
sitting around here today help us to seek justice and find 
justice, and find justice, and to really find justice for the 
Chinese women; and also to help the many babies, wounded 
babies; and remove this evil family-planning system, and 
restore our human rights, and support us with humanitarian aid.
    I also want to thank you once again for all your help. Mr. 
Chairman, I want to thank you for today's opportunity you gave 
to me.
    [The prepared statement of Ms. Guo follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Thank you so very much for your courage in 
testifying. And again, through your tears, we are again 
reminded of the horrific impact this barbaric policy has had on 
not just the children, but on the mothers.
    Pastor Fu. Mr. Chairman, allow me to just add a few words 
about Ms. Guo's case. I was here this morning trying to test 
the quality of the phone call, and Ms. Guo's husband told me a 
story that happened last night that explains, you know, the 
price and the toll, the trauma that had been done permanently 
almost to women like Ms. Guo.
    He told me, he said last night as Ms. Guo was preparing to 
testify today, her husband heard very strong weeping, crying in 
the restroom. And later on her husband described to me that Ms. 
Guo walking out of the restroom with her arms like this as if 
holding a baby. And her husband said, ``Honey, why do you do 
this?'' and she said she was in the restroom and saw her son. 
She said, ``Our son is back''; not only their 8-month son, she 
said she saw many hundreds of thousands of babies following 
her.
    And I think, you know, it is traumatic. I mean, you can 
tell if you read the rest of her testimony, not only she 
herself experienced, but she saw, you know, many other women 
around her that very day, and she saw actually a bag of trash 
of babies in the trash can, and she couldn't identify to say 
goodbye to her dead son.
    Certainly, you know, I hope with her testimony and the 
hearing today, it could become a reality that more and more, 
hundreds and maybe thousands of babies could be rescued as a 
result of her testimony today. So that is my prayer. Thank you.
    Mr. Smith. Mr. Fu, thank you so very much. You know, it 
just underscores the trauma that goes on for years and is 
lifelong, and Ms. Guo is dealing with that still in the 
hospital. And people today as we meet, it is happening to them. 
It is so grossly underappreciated by Congress, by the White 
House, and by Parliaments around the world, although there is 
hope with the European Parliament recently taking its action, 
just how traumatized these women really are, when we have 
pointed out the number of suicides, far in excess of any other 
nation on Earth.
    I remember I met with Peng Peiyun, a woman who ran the 
program for years, and brought up an article that had been in 
The New York Times and pointed out--it started off about how 
this woman was essentially clinically depressed over what she 
had experienced. And she just said it was rubbish, it was just 
nonsense, it was just made up; that the women of China do not 
have those problems. Of course, she also said there was no such 
thing as a forced abortion either in the People's Republic of 
China. So she certainly was lying and deceiving, but just 
completely discounted the impact on women like we just heard.
    In previous hearings when we have had women who had 
suffered the cruelty of forced abortion, without exception they 
have been unable to finish their testimonies.
    During the Clinton administration, in this room, I had 
invited women who were on the Golden Venture program that 
President Clinton had changed our asylum policy from to 
preclude asylum protections for women fleeing forced abortion. 
He did it by Executive Order, and when he did that, these women 
had credible cases before the administrative law judge, but 
when the policy was changed, they were in no man's land and 
were being not coerced, but compelled in many ways to go back 
to China. And lawyers were fighting to keep them here.
    Well, I invited them to testify. To get them here we almost 
had to resort to a subpoena because they did not want them to 
tell their stories. But a woman sat right where Reggie 
Littlejohn is sitting, who found an abandoned baby girl, made 
that girl her own, and the family-planning cadres knocked on 
her door and then forcibly aborted her because she had her one. 
She could not finish her testimony, nor could the others, just 
like we heard. Wujian, in 2009 when she testified, broke down 
several times.
    So I think, if anything, if the press could convey and if 
lawmakers could better understand the trauma that women are 
suffering, the helplessness that they feel is without 
parallel--to have their babies not only stolen, but then 
murdered by the state. And they feel there is nothing they can 
do to stop it.
    So I would like to thank our panel. I have a couple of very 
brief questions, and then I will yield to my distinguished 
colleagues.
    I am wondering if you could tell us what you think we can 
do to mitigate any further retaliation against Ms. Feng, her 
husband, and the lawyers who are taking up her case. I have 
been amazed and in awe over these lawyers in China who take up 
cases, and then like Chen--Chen Guangcheng--and then they 
themselves become subjected to punitive actions, including 
incarceration and torture. You can go through the long list of 
very brave men and women. I am wondering what we could do. I 
mean, this woman and her husband and the lawyers now, but 
certainly those two and their family have been traumatized. How 
do we prevent further retaliation against them as we have 
already seen the beginning manifestations when the so-called 
townspeople showed up to call them betrayers? Would anyone like 
to take that?
    Pastor Fu. This is the update about the lawyer situation. I 
was able to talk with a lawyer, Zhang Kai, who has signed the 
agreement to represent Feng Jianmei and her husband, Deng 
Jiyuan's case. He says so far he only received one phone call 
from the security officer from the Domestic Security Squad 
Division and a gentle warning. He has not received a sort of 
visible, direct threat for taking up this case. And, of course, 
the local officials even went to Beijing. And remember what had 
happened to Chen Guangcheng on numerous occasions in the past 
when he escaped to Beijing, and Chen Guangcheng was abducted, 
kidnapped, by the officials from the Linyi or Shandong Province 
right in front of Dr. Yang Zhizhu, a professor of law and 
himself a lawyer, and they were beaten.
    So I think we should continue to raise this case. And 
certainly as Mr. Kumar suggested, this month, July 23 and 24, 
during the human rights dialogue with China, I think Secretary 
Clinton should raise this case during the dialogue.
    With regard to Ms. Guo Yanling's case, we received her cry-
out petition after the Chen Guangcheng case was exposed. And 
she and her husband actually with their three children escaped 
to Thailand August 7 last year and registered in the UNHCR, the 
High Commissioner on Refugees, in Bangkok. And, of course, 
after this hearing she is exposed, and I would hope that this 
committee and the Congress and the administration, especially 
the Bureau for--the PRM, Population, Refugee and Migration, 
should pay attention and send a priority one request to the 
United Nations--the refugee bureau, refugee agency in Bangkok 
to let them at least speed up their process of approval for 
their refugee protection. I think these are the things we can 
do immediately to help protect them.
    Mr. Smith. Mr. Mosher, you mentioned the UNFPA model birth 
control counties, and I think what is, again, underappreciated 
by most is the obsession level with regard to promoting 
population control in general, and in China particularly. I 
remember Harry Wu wrote a book called ``Better Ten Graves than 
One Extra Birth,'' and what he was merely putting as the name 
of his book was a big slogan that he had a picture of, as you 
pointed out. You have a number of--you have taken pictures of 
those slogans that are really part and parcel of the policy--
``Better Ten Graves than One Extra Birth.''
    I just read a very interesting book called, ``Unnatural 
Selection,'' I wasn't fully aware until I read the book just 
how sex selection was included as a way of lessening 
population. If you kill the baby, the girl child in the womb, 
she will never be a mother and will never give birth to 
children who will lead to an increase in population. A staple, 
a mainstay of the population control movement propaganda, and 
China swallowed that hook, line and sinker with its one-child 
policy and then the consequences of sex-selection abortions.
    I wonder if you could speak to, elaborate on this--you 
know, when you talk about these--and I remember in 1985, there 
was a hearing on the one-child-per-couple policy which brought 
out of a lot of the information you had provided that led to 60 
Minutes stories and other things. There was a 1985 hearing run 
by the majority--I was a minority Member then--and our 
witnesses were telling us, it's all over basically. I don't 
exaggerate. It was basically the high tides of China's 
population control program had reached its zenith, and now it 
was going toward normalcy. And, of course, Michael Weisskopf's 
three-part expose in The Washington Post completely obliterated 
that thesis for that hearing. But we have heard that over the 
years, over and over again. These were injustices, if they ever 
occurred, of the past.
    When you talk about these model birth control counties, it 
reminds me of Srebrenica in a whole different context, a place 
that the U.N. called a ``safe haven'' during the terrible war 
in Yugoslavia, and it became a mustering zone for the killing 
of about 8,000 men with full acquiesce by the Dutch UNPROFOR 
peacekeepers.
    Maybe not a good analogy, but it is certainly similar, 
because at the bottom, at the core of those model counties, 
they are still implementing the government policy of one child. 
Could you just elaborate on that, if you could?
    Mr. Mosher. Well, I think you are perfectly correct in 
pointing out the repeated attempts to convince the outside 
world that the policy is undergoing modifications and some 
changes, and the abuses are a thing of the past. Once you hear 
that five or six times, it loses credibility. And the most 
recent efforts, of course, which appear to originate separately 
from the government, among academics and so forth, are the 
first real sign of hope that I have seen in the past few 
decades.
    Government bureaucrats who respond to criticism are simply 
trying to defuse foreign criticism. They are not going to make 
fundamental changes in the program, and to see the beginnings 
of Chinese civil society now reacting, and at great personal 
risk, as the attorneys do, as some people in the media do is 
very heartening. It doesn't mean that the battle is over, but 
perhaps now the program is entering its final years.
    We shouldn't forget that the Chinese Government has pledged 
to continue the program until 2050. That is a long time in the 
future. We also shouldn't forget that every Chinese leader 
beginning with Deng Xiaoping, through Jiang Zemin, through Hu 
Jintao has endorsed the policy, which means that it is not an 
issue that local-level officials or middle-level officials can 
discuss with impunity because the center has set a policy, and 
their job is to follow that policy.
    I have long thought that much of what comes out of China in 
terms of modification of the one-child policy is simply done 
for reasons of saving international face.
    Secondly, I have also believed that one of the reasons why 
for decades the Chinese Government authorities have ignored the 
slaughter of little baby girls is because they understand that 
this contributes to the solution of what they consider China's 
overpopulation problem, because the tens of millions of young 
men who are unmarried and who will never marry because their 
brides have been killed in utero or after birth will not 
contribute to population growth in the future. They will not 
have any children. So if you eliminate a woman, you eliminate 
all of the children that she would have had and all of her 
children's children on down through the generations.
    Finally, going back to the point that Reggie made about 
going from a one-child policy to a two-child policy or three-
child policy, the problem here is that the government has taken 
control of all of the reproductive systems in China. It has 
usurped the authority of parents to decide for themselves the 
number and spacing of their children. This did not begin in 
1979 or 1980 with the one-child policy. This began in the early 
1950s in which there was a discussion held between Chairman Mao 
and his senior officials as to whether or not it was the proper 
role of government in China to dictate how many children should 
be born in that country; whether or not it was the role of the 
state not just to control all the means of production under the 
high tide of communism, but also to control the means of 
reproduction, which is to say the male and female reproductive 
systems of all Chinese. And the decision that was made by 
Chairman Mao in the early 1950s was that the state had a 
legitimate role in controlling reproduction, and in the 1950s 
he exercised that role by encouraging the Chinese to have 
larger families. And then, of course, things came full circle.
    But the problem here is the state has taken over control of 
reproduction. This is a fundamental human right, and until the 
Chinese state decides it has no business interfering with the 
reproductive systems of couples in China, the problem will 
continue. Whether or not there is an end to the one-child 
policy, whether or not there is a move to a two-child policy or 
three-child policy, the fundamental problem lies here.
    Mr. Smith. Ms. Buerkle.
    Ms. Buerkle. Thank you, Mr. Chairman.
    The testimony that we just heard is a--you know, we sit 
here almost in the abstract and discuss this issue. But when 
you hear the anguish in that woman's voice about the loss of 
her child this many years later, as a mother of six, I can only 
just begin to appreciate her grief. So, thank you, Pastor, for 
allowing her testimony to be translated today, and, again, 
thank you to all of you for your willingness to be here and 
defend human rights.
    My questions are directed to anyone who would be willing to 
answer or able to answer.
    One of the things we hear are the apologists who say that, 
well, the vast majority of Chinese women support this policy. 
Can any one of you speak to that? And also we hear that the 
policy only affects urban dwellers or government workers, and 
so if you could flesh that out for us, I would appreciate it.
    Ms. Littlejohn. Well, with respect to your second question, 
it is interesting because some people say, oh, well, that only 
happens in the urban centers, or that only happens in the 
countryside. So you are talking about the people who say it 
only happens in the urban centers, and I want to point out a 
case that came out in March of this year. It was an anonymous 
posting, but it was a posting--and I think many people will 
remember this--it was an image of a full-term baby floating in 
a red bucket. That happened in Linyi. That is where Chen 
Guangcheng is from. A woman had given birth. She had been 
forcibly aborted at 9 months. I guess the needle slipped and 
passed the baby's head because the baby was born alive, cried, 
and that baby was drowned in a bucket. And there was a picture 
that was posted on Weibo and went all over the world.
    Now, Chen Guangcheng comes from the countryside of China. 
He comes from Dongshigu Village. If you want to read some of 
the most horrific cases you have ever read in your life, just 
read the Chen Guangcheng report, which I posted and also broke 
to the West in the hearing on September 22, 2011, of this 
subcommittee. That all happened in the countryside. Women 
aborted, 7, 8, 9 months.
    Men, there is a man that was killed. There was a man who 
committed suicide; a grandmother and her brother were forced to 
beat each other; whole families, extended families, that were 
brought in because of a family-planning violation of one person 
in their family. Because of implication, they were all brought 
in and tortured together and forced to pay 100 yuan a day in 
family-planning learning fee tuition.
    All of this happened in countryside. Homes were destroyed. 
And yet things have been happening in the city as well. There 
was a case that happened I think it was in October 2010 of a 
woman in Xiamen--this was broken by al-Jazeera--who was 
forcibly aborted at 8 months. It happens in the cities, and it 
happens in the countryside. It happens everywhere in China.
    Ms. Buerkle. I will just follow up, and then please feel 
free to answer. Some will say the Chinese accept this policy. 
That is what I would like you to speak to as well. Just what is 
their feeling about this, and have they accepted this policy?
    Pastor Fu. To say or claim that the majority of Chinese 
women support the cruel one-child policy is a flat-out lie. I 
think no women in China will be happy to see their wombs being 
owned by the family-planning officials from the day of their 
marriage to the day really they were forcibly sterilized. Every 
woman has a book, a book recorded. Every month they have to 
undergo mandatory and forcibly undergo a physical check to see 
whether they are pregnant, whether there are any signs of 
pregnancy. Of course, once they are found escaping, then the 
whole family, the neighbors, other relatives will be in big 
trouble. So no woman will support that kind of policy. Yes, it 
is a lie.
    Ms. Buerkle. Just one last question, Mr. Chairman.
    I guess my question is to all of you. How can we best 
combat and call attention to this? Whether it is the American 
community or the global community, what can we do to combat any 
apathy, or ignorance, or just a disregard of this tragic 
policy?
    Ms. Littlejohn. Well, having hearings is really at the top 
of the list. I think this kind of thing really does help 
publicize public policy. I would also like to remind this 
committee of an Act that was sponsored by Congressman Chris 
Smith, H.R. 2121, the China Democracy Promotion Act of 2011. I 
think Congress could pass an Act like this, and what that would 
do, it would enable the President to deny entry into the United 
States for Chinese human rights abusers. I think that that 
would be a major thing.
    And I would also mention that part of ending the policy is 
giving people within China the hope that it can end and helping 
them to continue to be informed about this. And again, I want 
to lift up Voice of America, which is constantly under attack, 
and getting, I understand right now, that they have cut the 
funding for interpreters so that people who speak English can 
no longer appear, so I will not be able to be on there, 
Congressman Smith will not--only Chinese speaking people will 
be able to appear on Voice of America. That cuts out a lot of 
Americans to be able to speak into China about these issues.
    So that's another thing to keep the visibility going on 
within China as well, and Voice of America is the major organ 
for that. 
    Mr. Mosher. I would return to the point of delegitimizing 
China's one-child policy by taking funding away from China that 
comes to it from the International Planned Parenthood 
Federation, which has been active in China since 1979, the U.N. 
Population Fund which has also been active in China from that 
same year. The fact that the Chinese Government gets funding 
for its one-child policy from prestigious international 
organizations that are, in part, funded by the United States is 
used by the Chinese Government to justify and explain the 
program to the Chinese people. The government says to the 
people if the United Nations, which represents the collective 
views of the people around the world, thinks that we are doing 
a good thing by embarking on the one-child policy, they say who 
are you to resist, or who are you to think it is a bad idea?
    So we need to end that source of support for the one-child 
policy, and I believe that will embolden a lot of people of 
China to speak out where they haven't before.
    Mr. Kumar. Coming back to your first question of the 
support among women. When there is no need to forcibly abort 
a--you know people support, why do they have to force it? So 
that pretty much nullify that particular argument.
    Coming back to the issue of how best to begin to address 
this, of course, all the recommendations we support but after 
sitting here and listening to this testimony from Bangkok, I 
think the angle of what happened to women who undergo this from 
the--is missing. That should be brought to light, how a woman 
who have been forcibly aborted, not abortion, this is forcibly 
aborted, feels and undergoes the pain and suffering, that 
should be brought in. I will say that that will have a 
immediate impact on people around the world and everyone. So I 
would recommend that you try to hold a hearing only for women 
who have gone through this experience, forced abortion 
basically, I am not going to complicate with other issues. Try 
to find the women who we just heard from Bangkok, that will 
have an impact here because you have to have impact here as 
well, not only in China. Thank you.
    Ms. Buerkle. Thank you, I yield back.
    Mr. Smith. A few final questions, why has the U.N. system 
so failed the women of China? As I think all of you know, we 
have tried and under both Reagan and Bush, and Bush, defunded 
the UNFPA only to have its supporters, particularly in the 
European Union and elsewhere, seek to fill the gaps, if you 
will, and increase their funding which, again, sends that 
message that Mr. Mosher just conveyed to us that ``who are you 
to question this when the UNFPA is here?''
    And I have seen that myself, as I indicated earlier, when 
the UNFPA is pulled out as a defense against all critics and 
they simply say it is a voluntary program, and that is the end 
of the story. So we have, in this year's foreign operations 
appropriations bill, there will be a defunding on the House 
side. In all candor, the Republicans will seek to take out 
funding for the UNFPA. The Obama administration will oppose it 
vigorously, as will the Senate, and at the end of the day, we 
are less likely to get a cut or an elimination of the funding 
for the UNFPA, that doesn't mean we are not going to try.
    I think to be complicit in these crimes against humanity, 
in my opinion, suggests that the UNFPA itself ought to be at 
the Hague answering for such crimes and complicity in such 
crimes. And that story will come out someday, and we know it, 
but the Chinese people, I think will, especially the women of 
China will be extraordinarily chagrinned and angered that the 
U.N. played such a pivotal role in their repression. We will 
try, I can assure you, we will try, and we will try hard to do 
that.
    Let me ask you, if I could Ms. Littlejohn, you mentioned 
H.R. 2121 a bill that I have introduced. We need, I believe, 
and your thoughts on this, to do more under current law and I 
wrote it so I know it is there. It is the Admiral James W. 
Nance-Meg Donovan Foreign Relations Act, Fiscal Years 2000, 
2001; it is still in effect. It requires that a visa be denied 
to those who are complicit in these crimes and of forced 
abortion and forced sterilization.
    We have found after doing some investigations of this that 
a total number of 18 individuals, since its enactment back in 
2000, have been denied entry into the U.S., which is a very 
poor and ineffective compliance record.
    I would note parenthetically that I am the author of the 
Belarus Democracy Act of 2004, where we have a similar 
provision about denying entry visas to those coming in from 
Belarus. And there are some 200 people on a list who are human 
rights abusers who were denied entry.
    I think our next step really needs to be the promulgation 
of lists and the invitation to those who know abusers to come 
forward with their names so that the State Department, so that 
the U.S. Government will deny visas to the United States based 
on these crimes against women. So that is a follow up item I 
think we really need to go forward with.
    And finally, with regard to trafficking, the Chinese 
Director of the Ministry of the Public Security Anti-
Trafficking Task Force stated in the reporting period that the 
TIP Report covered, ``The number of foreign women trafficked to 
China is definitely rising'' and that, ``Great demand from 
buyers, as well as traditional preference for boys in Chinese 
families are the main culprits fueling trafficking in China.''
    So what many of us have predicted for years is now coming 
to fruition in a very, very terrible way with more women from 
outside the country being brought in and being abused. Any of 
your thoughts on that? It seems to me that if this policy is 
not immediately and irrevocably reversed, and it will take time 
to reverse its consequences, this problem of human trafficking 
will only be exacerbated and China will become the ultimate 
magnet for the buying and selling and the commodification of 
women in the world. Your thoughts?
    Ms. Littlejohn. Mr. Chairman, I would like to agree with 
you and am very glad that the TIP Report is finally including 
this after we have been pressing this issue for years.
    I just want to bring forth the plight of North Korean 
girls, because there is definitely a confluence between the 
vacuum of women, and China just basically sort of sucking up 
women from many of the surrounding countries, and the way that 
it is violating international refugee law in this sense.
    As you know, if human rights is worse anywhere in the world 
than in China, it is North Korea and people risk their lives to 
get over that border. Sometimes young women and girls they come 
over the border into China thinking that they have finally 
escaped a horrific situation and they might be able to find 
some kind of safety in China, and then they immediately get 
snapped up in the sexual slavery trade. And these young girls 
can get beaten, they can get raped, they can get murdered, and 
there is nothing they can do, there is no one they can appeal 
to, because if they then go to the authorities and say, look, I 
have been trafficked, help me, the Chinese authorities will 
say, oh, you are an illegal economic migrant and repatriate 
them to North Korea in contravention of international refugee 
law, and these girls can end up in the North Korean death camps 
or possibly executed.
    I have heard credible reports of members of their families 
being executed as well. So this is something that I would like 
to highlight in the context of the way the one-child policy is 
causing devastation to women and girls internationally, 
especially in North Korea.
    Mr. Smith. Pastor Fu.
    Pastor Fu. I just want to actually elaborate on the issue 
of how or why there has been silence even from some women's 
organizations on this forced abortion issue. And I, of course, 
came from China without knowing a lot of American politics and 
before I was already receiving accusation that somehow to help 
rescue Chen Guangcheng, maybe even a part of the right-wing 
conspiracy. I don't even know this term.
    This is not a political issue, this is not a partisan 
issue, this is women's, children's rights issues, this is life 
and death issue. I think it should not be regarded as American 
domestic political issue. And we cannot play them, or even drag 
them into the U.S. political field. The women like Ms. Guo, 
they are crying out, they have nowhere to go. And if we just 
use--whatever way if this issue is regarded as part of the U.S. 
politics, and I think it sent a very chilling signal, I think, 
indirectly actually played by the Chinese Government, and to 
make more women and children into more miserable conditions. I 
think I would urge those women organizations like the National 
Organization for Women to come up.
    Really these are the women's issues, these are their sister 
issues. It should not be regarded as a political issue, to pay 
attention on these issues and to stand up and speak up for 
these vulnerable women, millions of them suffering in China 
because they are pregnant with their second, third baby. And 
they are dragged, you know, like pigs, and Ms. Guo, her 
testimony, she shared about--we have actually received this 
thick stack of documentation showing how she was captured, 
arrested with official stamps and to say that one town she was 
forced to pay a fine already after escape to another township, 
they force her to pay another fine and she cannot pay, she 
cannot afford to pay when she was imprisoned.
    It was well-documented, so I have already sent to the 
committee for the translation of these documentation. I also 
want to request that it be put as part of the record.
    Mr. Smith. Without objection, so ordered.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Mr. Mosher.
    Mr. Mosher. Mr. Chairman, I came back to the United States 
from China almost as politically naive as my good friend, Bob 
Fu, never having been interested in domestic politics where 
abortion to population control was concerned until I was 
forcibly confronted with it in China. And my first thought in 
the early 1980s was to go to the National Organization for 
Women. And I did and I talked with Eleanor Smeal, who was the 
head of the National Organization of
    Women. And I presented her with documents about forced 
abortions in China, pictures that I had taken and so forth, and 
she looked sober-faced at my presentation, my evidence. And 
then she said, well, I am personally opposed to forced 
abortion, but China does have a population problem and that was 
the end of it. They would not do anything.
    Now maybe their views today would be different. Maybe the 
compilation of evidence that you and Reggie and others have 
brought together over the years will convince them to overcome 
their reticence to condemn forced abortions in China and 
everywhere. We should continue to go to everyone, all people in 
goodwill and encourage them to take action against this. It is 
true that in the United States, if you did a poll on forced 
abortion, you would probably find over 90 percent of Americans 
oppose forced abortion. We find that 86 percent of Americans 
oppose sex-selective abortion, which is happening in China at 
epidemic levels.
    So this shouldn't be a political issue not because of the 
partisan divide, but it is a simple matter of human rights that 
women should not be forcibly aborted, that the little girls 
should not be eliminated simply because of their sex after 
birth and before birth. And I think on that ground we will 
finally find consensus.
    Ms. Littlejohn. May I just add to that? I think there are 
grounds for hope here, Women's Rights Without Frontiers from 
the very beginning have been saying this is a human rights 
issue. When it comes to forced abortion, whether you are pro-
choice or pro-life, you don't support it because forced 
abortion is not a choice. And several people from the pro-
choice movement have come forward recently, Victoria Nuland 
from the State Department, in the case of Cao Ruyi, said we 
have seen reports of the Chinese women as being detained and 
possibly pressured into a forced abortion and that we oppose 
forced abortions.
    Then Nancy Northup, from the Center for Reproductive 
Rights, wrote a letter to The New York Times, dated July 4th of 
this year saying that she opposes forced abortion and 
specifically citing Feng Jianmei. I think this is a 
breakthrough. This is the first time one of these pro-choice 
groups has come through and finally said we oppose forced 
abortion. And in this regard, I just want to mention the 
forerunner of all this, who was Cori Schumacher who about a 
year ago, it was the 2011 reigning world women's longboard 
surfing champion, and an ardent pro-choice feminist, and she 
boycotted the 2011 world women surfing championship tour 
because one of the events took place in China. Citing the 
testimony before Lantos Commission which you chaired in 2009 
and citing the Web site of Women's Rights Without Frontiers, 
she said she will have nothing to do with a country that is 
forcibly aborting women.
    So I just think that that is great. She was a forerunner of 
this, so I see that now finally, perhaps because of this 
confluence of forced abortion cases that have recently come 
out, the pro-choice people are finally seeing the light forced 
abortion is not a choice.
    Mr. Smith. Thank you. Mr. Kumar. 
    Mr. Kumar. I would recommend that as I mentioned earlier, 
that it is important to bring the issue that this is forced 
abortion, and in the impact it has on women and of course, we 
should keep on pushing the administration to keep this as one 
of the priorities, opportunities as mentioned earlier of 
upcoming dialogue. Thank you, thank you.
    Mr. Smith. Thank you. I would just disagree with you in 
terms of keep it as one of the priorities, I would say make it 
one of the priorities, but we disagree. I would like to ask 
unanimous consent that a report by the Laogai Research 
Foundation, Harry Wu's foundation called Human Rights, Abuses 
Caused By the One-Child Policy As Seen From Official Documents 
be made a part of the record. Without objection so 
ordered.<greek-l>More to come from Mark deg.
    [The report referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Smith. And I would like to thank our very distinguished 
panel and our very distinguished guest from Bangkok who 
testified via phone for her contribution today, for, again, 
reminding us the consequence the one-child-per-couple policy 
has had on women in her case going back to 1995 in her case, 
and Feng's case going back just a few weeks ago. I would like 
to thank you all for your tremendous testimony. This hearing is 
adjourned.
    [Whereupon, at 4:22 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
